! \

I
4J

\
i

1
i

f \

1
i.

i

/

*

APPENDIX SECTION

la
APPENDIX A ,

UnitedStatesCourHd'Appeals
7

For the First Circuit
No. 19-2142
WILLIAM H. SORKPOR,
Plaintiff - Appellant,
v.

THE HARLO FENWAY,
Defendant - Appellee.

s

Before
Howard, Chief Judge,
Selya, Lynch, Thompson,
Kayatta and Barron,* Circuit Judges.
ORDER OF COURT
Entered: January 26, 2021

j

The petition for rehearing having been denied by the panel of judges who decided the case,
and the petition for rehearing en banc having been submitted to the active judges of this court, and
a majority of the judges not having voted that the case be heard en banc, it is ordered that the
petition for rehearing and the petition for rehearing en banc be denied.

By the Court:
Maria R. Hamilton, Clerk
f/

* Judge Barron is recused and did not participate in the determination of this matter.

la

2a
APPENDIX B

United-States Courtof Appeals
For the First Circuit
No. 19-2142
WILLIAM H. SORKPOR,
Plaintiff - Appellant,
v.
THE HARLO FENWAY,
Defendant - Appellee.

Before
Torruella, Selya and Thompson,
Circuit Judges.
JUDGMENT
Entered: September 14, 2020
Plaintiff-appellant William H. Sorkpor, proceeding pro se, appeals from the district court's
grant of summary judgment on his claims of housing discrimination in favor of defendantappellant The Harlo Fenway. After de novo review, see Bonilla-Ramirez v. MVM. Inc.. 904 F.3d
88, 91 (1st Cir. 2018), the court concludes that affirmance is in order. See 1st Cir. R. 27.0(c) (court
may affirm at any time if no "substantial question" presented). The summary judgment record
reveals no direct evidence of discrimination, and, on appeal, Sorkpor has failed to elucidate some
genuine issue of material fact bearing on the analysis required for an indirect-evidence-based claim
of discrimination. See generally Batista v. Cooperativa De Vivianda Jardines De San Ignacio, 776
F.3d 38, 43 (1st Cir. 2015) (FHA-disability-discrimination claim) ("Summary judgment for the
defendant is warranted on a disparate treatment claim if the plaintiff cannot produce either (a)
direct evidence of discriminatory intent or (b) indirect evidence creating an inference of
discriminatory intent.") (internal quotations omitted); see also Saunders v. Town of Hull. 874 F.3d
324, 331 (1st Cir. 2017) ("It is hornbook law that theories not raised squarely in the district court
cannot be surfaced for the first time on appeal.") (internal citations omitted); Oliveira v. New
Prime, Inc.. 857 F.3d 7, 17 n.15 (1st Cir. 2017) (new arguments cannot be raised for the first time
in a reply brief).
Accordingly, we affirm.

2a

Case l:18-cv-11459-WGY Document 50 Filed 10/09/19 Page 1 of 1
3a

APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS

Civil Action
No: 18-11459-WGY
SORKPOR
Plaintiff
v.

THE HARLO FENWAY
Defendant

JUDGMENT

i

This action came before the Court for a ruling on Defendant’s Motion for Summary
Judgment. The issues have been heard and the Court Orders the Motion for Summary
Judgment is Allowed.
IT IS ORDERED AND ADJUDGED JUDGMENT FOR THE DEFENDANT
The Harlo Fenway
ROBERT M. FARRELL
Clerk
By the Court,
!

/$/ Jennifer Gaudet
Deputy Clerk

October 9,2019

t

4a

appendix d
investigative disposition
Case Name:'
MCADDocket No.:
HUD Docket No.:
Investigator:
Recommendation:

Wiliam Sorkpor v. The Hario Fenway
17BPR02396
y
01-18-8373-8
Vera Schneider, Compliance Officer III
Lack of Probable Cause

Introduction

in
color andpitSEe .
property is located at1350 BoyWStr^ Bo®^“m15'.
' m lta !“bj“t
• Complainant’s Allegations

he receives public assk^wSfSortn of?SM JJS

(?0mplainant state* that

Js.‘sa:a-.‘3s£K~L-sss:=s-

states AM Respondent'?X* m 02215‘ Complainant
Complainant states that onOrtober 5th, Sso met
hisapPlication.
Aaron Cramer, who is White. Compliant
sfroPerty manager,
income was based on SSDI benefits Comni!fteS»1^Iie^lfo?med Cramer that part of Ms
Complainant forpraof of foSfhe ST S??.,ha, whm
asked
SSDI. Complainant states that at this time CremCT°f0f'IKj?'VWi^i°S,1“receiP,of
trt application was denied allegedly dne
with anodee statingthst
Complainant states that he called rw»T
“s consumer credit report,
told that he had good credit, did not owe Sn
^1116 credit check, and was

fr

(3)years °,d- cSnpiahS SSSSfSS: f

pomye««»

s cannot
believes that his Race. Co,or. ^^AtlSl^SSSSS.
Respondent’s Position

Rospondent tbat?etml^M^S!eEa>md,,r2’'a?' °° 0ct<>ber 5.2017, informed the

1

VUJC J.< XW VV

A4.TVW

« « W

I

*• V—* -• *V/

5 9.

'^^g&ssaasssx*
SSv=‘?S.-Ss~.=SS
Respondent states thatite thil^r® *® «*v*rae actfon ^

>

|^«Sssss€Sss,»

St-SSS551!

f^S~'»23faSSSSass
r”““^“^^^,5ssSW
4a?R«p^d®S 1’7“ ? tot RaapoSen, SS S^ff * *“>” «< »®r

Refusal to Rent

=5assSSS?»=assSSs
classw based o^raSw^dSSf^ut? 0) “d <2)he is a member ofprotected
revealed that on OctobfeTs 20}? ^wf?" ° • mo«tWy SSDI beneifo ^eSSr*5 “,**
• apartment at The Harfr. <, J7, pomPlamant went in Demon tn «,*„i * tovestlSation also
Boston, MA 02215 £2^kpartmentbwiding7StedLt
“

SSsasSSSS-^^^Sr3SSSSrS
hold the unit

Unit#204 fof 52,48100 per month and pliowuSo^JS^^^®

cnway

2

*>

6a
that Respondent uses CoreLogic Rental Property Solutions to review applicant information
based on the applicant’s credit report, application, and previous rental history.
Investigation revealed that Respondent requires a score of at least 57,5 in order to accept an
applicant; a score between 525 and 575 might be accepted with certain conditions; and a
score below 525 will be declined. In^gatidh'revealwl'tKa Compiainant’s-scorefeli----------below 525, at 464.
Complainant asserts that he has the necessary funds to rent the subject property. In his
rebuttal, Complainant asserts that the annual rent for tire subject property is $29,820, while
his annual income is $33,683.06. Complainant further states that he submitted information
to Respondent showing that he had additional fiinds available in his Citizen’s Bank
account and "cash on hand,” leaving him with an excess of $10,063.06 for the year after
rent expenses. During investigation, Complainant provided a monthly accogrt statement
from CoMerica Bank dated October 2017, with a storting balance of$14,840mT
Complainant also submitted a Citizens Bank statement showing a current balance of
. $1,199.00 as of October 31,2017, as well as a debit sale receipt from the U.K.
While Complainant can establish that (4) Respondent refused to rent to die Complainant,
Respondent has. provided a legitimate business reason for refusing to rent to Complainant
Investigation revealed that on October 5,2017, Respondent submitted to Complainant a
notice of adverse action based on information obtained through CoreLogic Rental Property
Solutions credit reporting agency, which indicated that Complainant had insufficient
income to rent the unit and did not meet CoreLogic’s recommended credit score
requirement Complainant provided and.investigation revealed insufficient evidence to
establish a connection between Respondent’s alleged actions and Complainant’s protected
classes. Complainant has also not provided sufficient evidence to show that Respondent’s
offered reason was pretextual. Accordingly, there is insufficient evidence upon which a
fact-finder may determine that a discriminatory practice occurred. A finding of lack of
probable cause is recommended. .
Conclusion
A finding of Lack of ProbableCause is recommended for Complainant’s claims of
discrimination based on race/color and public assistance againsttbtflarlo £enway.

///aSVera Schneider
Investigator

■William Sorkpor v. The Harlo Fenway
17BPR02396

Ethan CrawfogK
Enforcement Advisor

3

7a

/
!

Probable Ca„Se is bei^ “ ^ ' hB“ “■ <
opportunity to appeal this decision. on this case. Complainant will be afforded the

CBLlcC
Investigating Commissi

oner

Janui £-18. 2018
Date

j

J7BPRfl2396kP°r V' The Harl° FenwaV

4

8a

CMS
will/

%

U.S. Department of Housing and Urban Development
Office of Fair Housing and Equal Opportunity
Thomas P. O’Neill, Jr. Federal Building
10 Causeway Street, Room 321
Boston, Massachusetts 02222-1092

November 22, 2017
William Sorkpor
PO Box 15235
Boston, MA 02215
Dear Complainant:
Subject: Housing Discrimination Complaint
Sorkpor v. The Harlo Fenway
Inquiry No. 542986
HUD Case No. 01-18-8373-8

On October 10, 2017, the U.S. Department of Housing and Urban Development (HUD) accepted your
complaint of housing discrimination under the Fair Housing Act (the Act) [42 U.S.C. 3601, et seq.]. Please
retain the attached copy of the complaint for your records. This letter refers only to the complaint listed
above. HUD will send you separate notice(s) regarding any other complaints you have filed.
HUD has referred your complaint to the Massachusetts Commission Against Discrimination for investigation
as required by the Act [42 U.S.C. 3610(f)]. HUD has determined that the fair housing law that the
Massachusetts Commission Against Discrimination enforces is substantially equivalent to the Act, and it has
the authority to address discrimination within the area where your complaint arose. The Massachusetts
Commission Against Discrimination, therefore, will take all further action on this complaint. Please direct
any questions you may have about the processing of your complaint, or any additional information that
supports it, to that agency. If the Massachusetts Commission Against Discrimination fails to begin processing
your complaint within 30 days, HUD may take up your complaint again. Otherwise, HUD will not send you
any further correspondence regarding this complaint.

I

Acceptance Letter

HUD Case No. 01-18-8373-8

9a
During its investigation of your complaint, the Massachusetts Commission Against Discrimination will
attempt to informally resolve the complaint through conciliation. If the parties cannot reach an agreement, the
Massachusetts Commission Against Discrimination will complete its investigation and issue a decision on
whether there was a violation of the law. If you do not agree with the final decision of the Massachusetts
Commission Against Discrimination, you can appeal in accordance with the agency’s procedures. You
cannot appeal the decision to HUD.
In addition to filing your complaint with the Massachusetts Commission Against Discrimination, you may
file a civil lawsuit in Federal district court [42 U.S.C. 3613]. You must file any civil lawsuit no later than two
(2) years after the alleged discriminatory housing practice occurred or ended. The time during which the
Massachusetts Commission Against Discrimination handles your complaint does not count towards this
two-year limit.
Be aware that it is unlawful to coerce, intimidate, threaten, or interfere with a person in the exercise of their
rights under the Act [42 U.S.C. 3617]. If you believe that anyone has taken such action against you because
you filed a complaint, please report it to the Massachusetts Commission Against Discrimination.
Please keep the Massachusetts Commission Against Discrimination informed of your current address and
contact information. If the agency cannot locate you, it cannot continue to process your complaint.
You may contact that agency at the following address.
Massachusetts Commission Against Discrimination
One Ashburton Place
Boston, MA 02108

Sincerely,

'Robert D. Forti,
Intake Branch Chief
Office of Fair Housing and
Equal Opportunity
Enclosures

Acceptance Letter

HUD Case No. 01-18-8373-8

